No. 19-1284

IN THE

*uprente (Court of the Ettitert iptateo
MALWAREBYTES, INC.,
Petitioner,
v.
ENIGMA SOFTWARE GROUP USA, LLC,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,964 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 12, 2020.

(• /4
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

